Audit Report




OIG-08-043
PRIVATE COLLECTION AGENCIES: Pioneer Credit Recovery, Inc.,
Needs to Improve Compliance with FMS’s Debt Compromise
Requirements
September 26, 2008




Office of
Inspector General
Department of the Treasury
Contents


Audit Report..................................................................................................... 1

    Background ................................................................................................. 2

    Finding and Recommendations ....................................................................... 3

        FMS Should Ensure Pioneer’s Enhanced Compliance With PCA Contract
        Requirements and Policy for Debt Compromise............................................ 3

        Recommendations.................................................................................... 6

Appendices

    Appendix     1:      Objective, Scope, and Methodology .......................................... 8
    Appendix     2:      Results of Review—Individual Cases ....................................... 10
    Appendix     3:      Federal Debt Collection Laws, Regulations, and Guidance.......... 12
    Appendix     4:      Management Response ......................................................... 13
    Appendix     5:      Major Contributors to This Report ........................................... 15
    Appendix     6:      Report Distribution................................................................ 16

Abbreviations

    DMS                  Debt Management Services
    FMS                  Financial Management Service
    OIG                  Office of Inspector General
    PCA                  private collection agency
    Pioneer              Pioneer Credit Recovery, Inc. (of Arcade, NY)
    TOP                  Treasury Offset Program
    Treasury             Department of the Treasury




                         Pioneer Needs to Improve Compliance with FMS’s                                      Page i
                         Debt Compromise Requirements (OIG-08-043)
This Page Intentionally Left Blank.
                                                                                   Audit
OIG
The Department of the Treasury
                                                                                   Report
Office of Inspector General




                      Judith R. Tillman
                      Commissioner
                      Financial Management Service

                      We audited compliance by Pioneer Credit Recovery, Inc. (Pioneer),
                      a private collection agency (PCA) under contract with the Financial
                      Management Service (FMS), with requirements for debt
                      compromise.1 Our objective was to determine, for compromises on
                      delinquent federal nontax debt, whether Pioneer is

                      1. following PCA contract requirements, including (a) attempting
                         to collect the full amount due before considering a compromise
                         and (b) compromising at authorized levels; and

                      2. documenting each compromise adequately, providing proper
                         justification, and retaining evidence for the required period.

                      Our audit of Pioneer is part of a series of planned audits of PCAs
                      and FMS’s oversight of debt compromise. Appendix 1 contains a
                      description of our objective, scope, and methodology.

                      In brief, we found that Pioneer was not following some PCA
                      contract requirements and FMS policy, including documentation
                      and justification provisions for debt compromise. We are making
                      four recommendations to address these matters. In the
                      management response, provided as Appendix 4, FMS concurred
                      with these recommendations.




1
 A compromise plan is a payment agreement that allows the debtor to satisfy a debt by paying an
amount less than the total balance due, typically in a single payment.

                      Pioneer Needs to Improve Compliance with FMS’s
                      Debt Compromise Requirements (OIG-08-043)                               Page 1
Background

             As the federal government’s financial manager, FMS implements
             the government’s delinquent debt program, collecting an annual
             average of more than $3 billion in delinquent debt over the last
             4 fiscal years through two main components, the Treasury Offset
             Program (TOP) and the Cross-Servicing Program.

             TOP, a centralized offset program, enables the matching of
             delinquent debtor records referred by federal program agencies and
             states against files for federal payments, such as income tax
             refunds, federal employment salary payments, and Social Security
             benefit payments. When a match occurs, the payment is
             intercepted and offset up to the amount of the debt.

             Cross-servicing is the centralized debt collection process for
             managing delinquent debts referred from federal program agencies
             through a variety of debt collection mechanisms, such as issuing
             demand letters, executing repayment agreements, referring
             accounts to TOP for administrative offset, referring debts to the
             PCAs, and reporting debts to credit bureaus.

             The FMS Debt Management Services (DMS) provides federal
             agencies with debt collection and management services. DMS
             leads the development and implementation of governmentwide
             debt management policies. It accomplishes its mission of improving
             the quality of the federal government's financial management in
             part by increasing the collection of delinquent debt owed to the
             federal government and by providing debt management services to
             all federal agencies.

             Once DMS determines that debtors cannot be located or are
             unwilling to resolve debts in an acceptable manner, the debts may
             be sent to the PCAs, which are private sector companies that
             specialize in collecting delinquent debt. The PCAs will attempt to
             find and contact debtors by searching various databases, making
             telephone calls, and sending collection letters. Once debtors are
             located and contacted, the PCAs will encourage them to satisfy
             their debts.



             Pioneer Needs to Improve Compliance with FMS’s                Page 2
             Debt Compromise Requirements (OIG-08-043)
                       On March 12, 2007, DMS awarded a Treasury debt collection
                       contract to Pioneer, to increase the recovery of, and to resolve,
                       nontax federal debts.2 The contract is a renewable 1-year contract
                       with four 1-year options available. Pioneer also provided debt
                       collection services under a prior contract with FMS.

                       For the 1-year period ending January 31, 2008, FMS referred
                       $676 million to Pioneer, which collected $18.7 million and
                       administratively resolved $74.9 million. The total amount forgiven
                       for the 274 compromise agreements for which the forgiven amount
                       was in excess of $2,000 processed by Pioneer during the 1-year
                       period ending January 31, 2008, was $10.6 million.

                       Debt collection efforts are governed by various federal and state
                       laws, including the Debt Collection Improvement Act of 1996 and
                       the Federal Claims Collection Standards. Appendix 3 contains a
                       brief summary of federal debt collection laws, regulations, and
                       guidance. DMS’s Private Collection Division monitors PCA
                       activities.

Finding and Recommendations

                       FMS Should Ensure Pioneer’s Enhanced Compliance
                       With PCA Contract Requirements and Policy for Debt
                       Compromise

                       Pioneer was not following some PCA contract requirements and
                       FMS policy, including documentation and justification provisions for
                       debt compromise, as discussed below. We provided a copy of our
                       discussion draft report to Pioneer and have summarized its
                       comments as we deemed appropriate.

                       Appendix 2 provides a summary of our results on a case-by-case
                       basis for the 36 cases in our sample, randomly selected from a

2
  A debt may be administratively resolved for a variety of reasons. For example, collection efforts may
be discontinued because of a debtor’s death, disability, or bankruptcy or because a debtor entity has
gone out of business. A debt may also be resolved if the debtor pays or otherwise satisfies the
delinquent debt in full, pays the amount of a compromise reached, or enters into a repayment
agreement under terms acceptable to the creditor agency.

                       Pioneer Needs to Improve Compliance with FMS’s                             Page 3
                       Debt Compromise Requirements (OIG-08-043)
                       universe of the 274 compromise agreements that had an active
                       status during the audit period and had amounts forgiven greater
                       than $2,000.

                       Inadequate Documentation of Steps in Collection Process

                       Before compromising a debt, the contract requires a PCA to take
                       the following steps, in order: (1) attempt to collect the full amount
                       in one payment, (2) attempt to collect the full amount in multiple
                       payments, and (3) attempt to collect a partial payment amount in
                       one or multiple payments.3 The PCA is also required to include in
                       its system a separate justification for being unable to collect in
                       accordance with each applicable step. If the PCA is unsuccessful in
                       these efforts, it may then attempt to negotiate a compromise
                       payment amount with the debtor.

                       In all 36 of the debt compromise cases we reviewed, Pioneer did
                       not document at least one of the first three steps listed above in
                       accordance with contract requirements. For example,
                       documentation was missing for step 3 (attempt to collect a partial
                       payment) in 35 cases. Without documentary evidence of its efforts
                       to establish partial payment agreements instead of compromise
                       agreements, Pioneer has not ensured FMS that the $1.9 million in
                       compromised debt for these debtors should have been forgiven.
                       In addition, documentation was not adequate for step 1 (attempt
                       to collect the full amount in one payment) in 1 case and for step 2
                       (attempt to collect the full amount in multiple payments) in
                       8 cases. Some cases had inadequate documentation for more than
                       one step.

                       In responding to this finding, Pioneer provided a statement of what
                       had been done on the account for each of the cases where we
                       found that documentation was not adequate for steps 1 and 2.
                       Our position continues to be that the debt collector’s notes should
                       include documentation in keeping with the contract requirements.



3
  In a partial payment agreement, the government suspends active collection while the debtor makes
payments toward the balance due. Unlike a debt compromise, a partial payment agreement does not
release the debtor's obligation to pay the full balance of the debt; the debt will remain in TOP so that
the debtor's federal payments may be offset and applied to the debt balance.

                       Pioneer Needs to Improve Compliance with FMS’s                                Page 4
                       Debt Compromise Requirements (OIG-08-043)
Inadequate Documentation of Reasons for Compromise

The contract states that the PCA is to document in its system
justifications for accepting, or recommending acceptance of, less
than the full amount of the debt in one payment. In addition, the
PCA must submit to DMS a request for approval of any
compromise agreement not meeting the applicable standards,
together with the justification and documentation required by the
contract, including the reason for accepting a compromise. The
applicable standards include agreement thresholds defined by the
federal program agencies, such as the percentage of debt that may
be compromised. Depending on the circumstances, concurrence for
a compromise may be required from FMS, from the federal program
agency, and/or from the Department of Justice.

Once a decision to proceed with a compromise was made, Pioneer
did not document required justifications in its system in 2 cases.
Pioneer also did not adequately explain in the concurrence
documentation sent to FMS why the debt should be compromised
for 8 of the 11 debts that required concurrence. This included 1 of
the 2 cases mentioned above.

Pioneer indicated that additional training may be appropriate to
address the issue of documentation and that its employees simply
may not have remembered to include the justifications. Without
proper documentation by a PCA, a reviewer would not be able to
determine whether the PCA adhered to the requirements of the
contract and acted in the best interests of the government.

In responding to this finding, Pioneer’s position is that FMS
approved the 8 cases and therefore adequate documentation was
provided. We did not find adequate documentation in the files.

Missing Compromise Agreement Letters

The contract states that, after reaching an agreement with the
debtor, the PCA is to send a DMS-approved compromise
agreement letter to the debtor confirming the payment arrangement
to which the debtor has agreed.




Pioneer Needs to Improve Compliance with FMS’s                Page 5
Debt Compromise Requirements (OIG-08-043)
Files for 3 of the 36 Pioneer cases we examined lacked
compromise agreement letters. There was no indication in the
collector notes in Pioneer’s system that letters had been sent to
the debtors. Pioneer was not able to explain why copies of the
letters were missing. In instances where letters were not sent,
debtors would not have documentation confirming the payment
arrangement and it would be difficult for a PCA to settle any
dispute that might arise.

Missing 30-Day Notice on Compromise Agreement Letters

According to the contract, the PCA is to include in all accepted
payment agreements the provisional notice that failure by the
debtor to bring the account current within 30 calendar days from
the payment due date will result in (1) the agreement becoming null
and void and (2) the original amount of the debt being reinstated
and due immediately, minus any payments and plus any accruals.

None of the 33 compromise agreement letters contained in the files
of our sample cases included the required 30-day notice. When
asked about this, Pioneer officials stated that DMS approved its
compromise letters. DMS told us that prior to beginning collection
work under the current contract all of the PCAs submitted
collection letters to DMS for approval. DMS notified Pioneer that its
letter was approved for use provided it changed the delinquency
language to match the language in the contract. However, letters
under both the prior and the current contract did not include this
language. Failure to provide debtors with a 30-day notice is
inconsistent with PCA contract requirements and could cause
confusion and unfairness.

Recommendations

We recommend that FMS take action to ensure that Pioneer

1. conducts additional training or takes other corrective action to
   ensure that its employees properly document the steps taken
   prior to compromise,
2. documents properly its justification for all compromise
   agreements,



Pioneer Needs to Improve Compliance with FMS’s                  Page 6
Debt Compromise Requirements (OIG-08-043)
3. sends and retains copies of compromise agreement letters in
   each case where a compromise is reached, and
4. includes the 30-day provision in all compromise agreement
   letters.

Management Response

FMS concurred with our recommendations. The DMS Private
Collection Division held a Debt Collection Forum for representatives
of each of the five PCAs under the current contract, including
Pioneer. Payment agreement standards and documentation
requirements were a major focus. DMS plans to verify that each
PCA has conducted additional training and may travel to PCA sites
to train collection staff. DMS will request additional documentation
from the PCAs where concurrence is required. As part of its annual
compliance reviews, DMS will continue to ensure that compromise
agreement letters were sent. Finally, Pioneer is now using a revised
compromise agreement letter with the required 30-day provision.

OIG Comment

We believe that the actions taken or planned by FMS address the
intent of the recommendations.

                               *******

We appreciate the courtesies and cooperation provided to our staff.
If you wish to discuss this report, you may contact me at
(202) 927-6512 or Maria V. Carmona, Audit Manager,
at (202) 927-6345.




Michael J. Maloney
Director, Fiscal Service Audits




Pioneer Needs to Improve Compliance with FMS’s                 Page 7
Debt Compromise Requirements (OIG-08-043)
                     Appendix 1
                     Objective, Scope, and Methodology




                     Our audit objective was to determine if, for compromises on
                     delinquent federal nontax debt, the private collection agencies
                     (PCA) were

                     1. following PCA contract requirements, including (a) attempting
                        to collect the full amount due before considering a compromise
                        and (b) compromising at authorized levels; and

                     2. documenting each compromise adequately, providing proper
                        justification, and retaining evidence for the required period.

                     We began our fieldwork for the overall audit in February 2008 and
                     completed it in June 2008. Our work was performed at the
                     Financial Management Service (FMS) offices in Washington, DC,
                     and onsite at Pioneer Credit Recovery, Inc. (Pioneer).

                     This report provides the results of our review for Pioneer, one of
                     the PCAs with which FMS has contracted for debt collection
                     services. We plan to issue additional reports to address the results
                     of our reviews of the other PCAs.

                     To accomplish our objective, we reviewed applicable laws and
                     regulations. We also considered policy guidance given to the PCAs
                     by FMS. This included both current and prior versions of PCA
                     contract documents and FMS policy issuances, such as the Private
                     Collection Agency Policy & Procedures Manual and technical
                     bulletins.

                     We considered how FMS monitors PCA activity, reviewing
                     the compliance checklists completed by FMS and supporting
                     documentation obtained by FMS as it oversees the PCAs. We
                     also reviewed the most recent compliance report for each of the
                     PCAs under the prior contract.4

                     We interviewed FMS staff in the Debt Management Services
                     Private Collection Division, including the contracting officer’s
                     technical representative for the PCAs. We also evaluated computer-
                     generated data files on debt compromises from the FedDebt
                     system, which is the current cross-servicing system. FedDebt is a

4
 FMS compliance reviews under the current contract began in May 2008. The final compliance review
under the prior contract was completed in 2006, with no reviews done in 2007.

                     Pioneer Needs to Improve Compliance with FMS’s                         Page 8
                     Debt Compromise Requirements (OIG-08-043)
                       Appendix 1
                       Objective, Scope, and Methodology




                       Web-based application used to create and update debt and debtor
                       information and monitor financial transactions.

                       In addition, we audited a statistical sample of debt compromises
                       under both the prior and current FMS contracts with Pioneer.
                       The sample of 36 debt compromises was randomly generated
                       from a universe of 274 compromise agreements negotiated by
                       Pioneer. The 274 agreements all had an active status during the
                       audit period and had amounts forgiven greater than $2,000.5
                       These agreements were posted to the FedDebt system from
                       February 2007 through January 2008, the most recent 1-year
                       period available at the time that we requested the automated data.
                       The following parameters were used to determine the size of the
                       sample: 95 percent confidence level, 3.5 percent expected error
                       rate, and ±3.5 percent sample precision.

                       We examined documentation for these debts to ensure that proper
                       justification was in place to support each compromise agreement.

                       We conducted this performance audit in accordance with generally
                       accepted government auditing standards. Those standards require
                       that we plan and perform the audit to obtain sufficient, appropriate
                       evidence to provide a reasonable basis for our findings and
                       conclusions based on our audit objectives. We believe that the
                       evidence obtained provides a reasonable basis for our finding and
                       conclusions based on our audit objectives.




5
 The amount forgiven included the outstanding principal, interest, administrative charges and penalties
at the time each agreement became active, and potential PCA and DMS fees, as well as potential
PCA bonus charges, less the amount to be paid by the debtor. Amounts forgiven less than or equal
to $2,000 were considered immaterial for this audit.

                       Pioneer Needs to Improve Compliance with FMS’s                             Page 9
                       Debt Compromise Requirements (OIG-08-043)
                              Appendix 2
                              Results of Review—Individual Cases



                                                                        A                           B                   C             D
                                                                   Inadequate                    Inadequate           Missing   Comp.
              Outstanding                                        documentation                 documentation          comp.     letter
              balance at                                                                Justification Justification   letter    missing
Case          date of         Compromise      Amount           Step     Step     Step   in PCA         for            (not in   30-day
     a                                                           b                                                                     c
Ref.          compromise      amount          forgiven         1        2        3      system         concurrence    file)     notice
A                    22,821           3,000          19,821                       X                         X                         X
B                    17,455           4,015          13,440                       X                                                   X
C                     6,546           4,189           2,357              X        X                                                   X
D                     9,115           4,990           4,125     X        X        X          X                                        X
E                    17,000         10,000            7,000              X        X                         X                         X
F                  492,428         100,000          392,428                       X                                                   X
G                  141,794          10,000          131,794                       X                                                   X
H                    25,256         10,426           14,830                       X                                                   X
I                  103,424          40,100           63,324                       X                                                   X
J                    10,465           5,500           4,965                       X                                                   X
K                     8,161           4,900           3,261                       X                                                   X
L                    18,543           9,000           9,543              X        X                         X                      X
M                    32,448         13,683           18,765                       X                                                   X
N                  202,186            3,000         199,186              X        X                         X                         X
O                    12,494         10,000            2,494                       X                                     X
P                  153,324          76,665           76,659                       X                         X                         X
Q                    10,369           5,200           5,169                       X                                                   X
R                    49,149         15,000           34,149              X        X          X              X                         X
S                    11,531           5,754           5,777              X                                                            X
T                  766,047            5,000         761,047              X        X                         X                         X

U                    11,052           7,604           3,448                       X                                                   X
V                    21,713         13,513            8,200                       X                                                   X
W                    10,384           5,192           5,192                       X                                                   X
X                     8,111           6,090           2,021                       X                                                   X
Y                    14,080         10,000            4,080                       X                         X                         X
Z                    15,590           7,796           7,794                       X                                     X
AA                   62,087         20,000           42,087                       X                                                   X
BB                   27,934         14,000           13,934                       X                                                   X
CC                   11,073           9,000           2,073                       X                                                   X
DD                    6,008           3,200           2,808                       X                                     X
EE                   31,035         15,000           16,035                       X                                                   X
FF                   11,319           7,900           3,419                       X                                                   X
GG                   12,632           9,335           3,297                       X                                                   X
HH                   11,504           8,850           2,654                       X                                                   X
II                    9,206           7,143           2,063                       X                                                   X
JJ                    6,214           3,186           3,028                       X                                                   X
    Totals      $2,380,498        $488,231        $1,892,267        1        8    35         2              8           3         33
     Notes: See corresponding letters on the following page.




                              Pioneer Needs to Improve Compliance with FMS’s                                                Page 10
                              Debt Compromise Requirements (OIG-08-043)
Appendix 2
Results of Review—Individual Cases




Notes:

a. Cases A-T were under the prior contract; cases U-JJ under the
   current contract.

b. Before compromising a debt, the contract requires a PCA to
   take the following three steps, in order:

       Step 1. Attempt to collect the full amount in one payment.

       Step 2. Attempt to collect the full amount in multiple
               payments.

       Step 3. Attempt to collect a partial payment amount in one
               or multiple payments.

c. The three cases where a compromise letter was not in file,
   shown in Column C, were not considered in Column D.




Pioneer Needs to Improve Compliance with FMS’s                  Page 11
Debt Compromise Requirements (OIG-08-043)
Appendix 3
Federal Debt Collection Laws, Regulations, and Guidance




The following are brief statements of the purpose of selected
federal debt collection laws, regulations, and guidance:

Debt Collection Improvement Act of 1996

To centralize the governmentwide collection of delinquent debt and
give Treasury significant new responsibilities in this area and to
require that agencies take prompt action to recover debts and
transfer all nontax debts delinquent more than 180 days to
Treasury for administrative offset and cross-servicing.

Fair Debt Collection Practices Act

To eliminate abusive debt collection practices by debt collectors, to
ensure that debt collectors who refrain from using abusive debt
collection practices are not competitively disadvantaged, and to
promote consistent state action to protect consumers against debt
collection abuses.

Federal Claims Collection Act and Standards

To set administrative procedures with respect to collection of debts
owed to the United States, including the criteria for accepting
installment payments and compromise agreements.

Privacy Act

To restrict the disclosure of personal information about individuals
and govern the handling of such information by the federal
government and its contractors.

OMB Circular A-129–Policies for Federal Credit Programs and
Nontax Receivables

To prescribe policies and procedures for justifying, designing, and
managing federal credit programs and for collecting nontax
receivables.




Pioneer Needs to Improve Compliance with FMS’s                  Page 12
Debt Compromise Requirements (OIG-08-043)
Appendix 4
Management Response




Pioneer Needs to Improve Compliance with FMS’s   Page 13
Debt Compromise Requirements (OIG-08-043)
Appendix 4
Management Response




Pioneer Needs to Improve Compliance with FMS’s   Page 14
Debt Compromise Requirements (OIG-08-043)
Appendix 5
Major Contributors to This Report




Michael J. Maloney, Director, Fiscal Service Audits
Maria V. Carmona, Audit Manager
Kenneth G. Dion, Audit Manager
Horace A. Bryan, Auditor
Gerald H. Kelly, Auditor
Myung G. Han, Management Analyst
Jenny Hu, Referencer
Gerald J. Steere, Referencer




Pioneer Needs to Improve Compliance with FMS’s        Page 15
Debt Compromise Requirements (OIG-08-043)
Appendix 6
Report Distribution




Department of the Treasury

Office of Strategic Planning and Performance Management
Office of Accounting and Internal Control

Financial Management Service

Commissioner
Assistant Commissioner, Debt Management Services
Director, Finance and Internal Control Division
Manager, Internal Control Branch (OIG Liaison)

Office of Management and Budget

OIG Budget Examiner




Pioneer Needs to Improve Compliance with FMS’s            Page 16
Debt Compromise Requirements (OIG-08-043)
